AFFIDAVIT OF SERVICE
STATE OF NEW YORK)
COUNTY OF ALBANY )

) ss:

· I ·R6
('l ns+a
. l8Zc.1Q~ng duly sworn, deposes and says:
I am over eighteen years of age and an employee in the office of LETITIA

JAMES, Attorney General of the State of New York, attorney for DefendantsAppellees herein.
On the 23rd day of June, 2020, I served the annexed Letter upon the parties
named below by depositing a true copy thereof, properly enclosed in a sealed,
postpaid wrapper, in a letter box of the Capitol Station Post Office in the City of
Albany, New York, a depository under the exclusive care and custody of the United
States Post Office Department, directed to the said party at the address within the
State and respectively designated by them for that purpose as follows:
David R. Morabito
Collette M.G. Morabito
11 7 West Commercial Street
P.O. Box 187
East Rochester, NY 14445

Sworn to before me this
23rd day of June 2020

Notary Public
FREDERICK A. BRODIE

NOTARY PUBLIC-STATE OF NEW YORK
No. 02BA6394010

Qualified in Albany County

My Commission Expires 07•01 ·2023

